                                                    SENSITIVE BUT UNCLASSIFIED



                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General

                                                 Office of Inspections

                                  Assessment of the Department of State’s
                                           Motor Vehicle Fleet


                                           Report Number ISP-I-12-51, September 2012




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.




                                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General (OIG) for
the U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

       •   Policy Implementation: whether policy goals and objectives are being effectively
           achieved; whether U.S. interests are being accurately and effectively represented; and
           whether all elements of an office or mission are being adequately coordinated.

       •   Resource Management: whether resources are being used and managed with
           maximum efficiency, effectiveness, and economy and whether financial transactions
           and accounts are properly conducted, maintained, and reported.

       •   Management Controls: whether the administration of activities and operations meets
           the requirements of applicable laws and regulations; whether internal management
           controls have been instituted to ensure quality of performance and reduce the
           likelihood of mismanagement; whether instance of fraud, waste, or abuse exist; and
           whether adequate steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                           i
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                           ii
                              SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


                                Table of Contents
Key Judgments                                                                  1
Context                                                                        2
Overseas Motor Vehicles                                                        3
Domestic Motor Vehicles                                                        8
Motor Vehicle Fleet Management Challenges                                      9
Motor Vehicle Allocation and Acquisition                                      11
  Innovative Practice: Centralized Procurement of Right-Hand-Drive Vehicles   13
Motor Vehicle Fleet Operations                                                14
Motor Vehicle Disposal                                                        16
List of Recommendations                                                       17
Abbreviations                                                                 18
Appendix I: Objectives, Scope, and Methodology                                19
Appendix II: Implementation of Best Practices                                 21
Appendix III: Case Studies                                                    23




                                       iii
                           SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Key Judgments
•   The Department of State’s (Department) motor vehicle fleets consist of approximately
    14,000 vehicles, with an acquisition cost of more than $867 million. Reported costs per mile
    driven for Department motor vehicles have increased over the past decade and are the highest
    among Federal cabinet agencies.

•   The Department is not in compliance with Federal Management Regulation 102-34.335 b.,
    which requires agencies to collect and report information on mileage, fuel use, and
    maintenance costs for each vehicle in the fleet.

•   The available motor vehicle fleet utilization data are incomplete and not fully reliable. Forty-
    five percent of overseas vehicles did not have required utilization reports completed for FY
    2011. Without these basic data, the Department cannot document whether it needs such a
    large overseas fleet.

•   Since 2005, the Department has taken some steps to improve vehicle fleet management.
    These include creating an internal fleet management council, instituting vehicle allocation
    methodology studies and fleet management plans for the domestic fleets, and developing a
    fleet management information system to automate the collection of vehicle fleet information.

•   The Department does not have criteria for allocating and replacing motor vehicles according
    to life-cycle replacement needs. The Bureau of Diplomatic Security (DS), International
    Cooperative Administrative Support Services (ICASS), Bureau of Administration, Bureau of
    Overseas Buildings Operations (OBO), and Bureau of International Narcotics and Law
    Enforcement Affairs (INL) use widely different procedures and practices to fund and procure
    vehicles for overseas use. Although overseas missions are required to review their fleet
    composition and size annually, the Department does not enforce this requirement.

•   The Department’s domestic fleet levels have been relatively stable since 2005. The Bureau of
    Administration’s Domestic Fleet Management and Operations division (FMO) has
    implemented many General Services Administration (GSA) fleet management best practices.


          The assessment took place in Washington, DC, between January 17 and March 9, 2012.
(b) (6)




                                           1
                              SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED


Context
        The Department operates worldwide fleets of motor vehicles to support its overseas and
domestic missions. In FY 2012, the Department’s fleets consisted of approximately 14,000
vehicles, with an acquisition value of more than $867 million. They support diplomatic and
consular operations in a wide variety of operating environments, from first-world capitals to
conflict zones. Vehicles support activities ranging from visits to imprisoned American citizens to
diplomatic negotiations and conferences to security and administrative support. Many missions
operate vehicle fleets under challenging conditions that include poor roads, heavy traffic, adverse
weather and climates, and high rates of crime, political violence, and terrorism.

       In 2004, the Government Accountability Office found that Federal agencies it reviewed
lacked processes to establish motor vehicle fleet size and composition that meet agencies’
mission statements. 1 In response to these findings, the GSA and the Office of Management and
Budget revised the Federal Management Regulation to require Federal agencies to establish fleet
management information systems. In a memorandum dated May 24, 2011, the President directed
GSA to prepare governmentwide instructions for determining optimum motor vehicle
inventories, with emphasis placed on eliminating unnecessary or nonessential vehicles from an
agency’s fleet inventory and ensuring life-cycle cost-effectiveness. 2

        Most overseas vehicles in the Department are exempt from GSA fleet management
regulations, including fuel efficiency standards, use of alternative fuel vehicles, and licensing
and registration requirements. The Department may apply the GSA management requirements to
the overseas fleet if the Department determines that it is in the best interest of the United States.
The use of official vehicles at overseas missions is governed by the U.S. Code (31 U.S.C. §
1344), certain sections of Federal Management Regulation Parts A and B, Foreign Affairs
Manual (FAM) regulations 12 FAM 380 and 14 FAM 430, and Foreign Affairs Handbook
(FAH) regulation 14 FAH-1 H-800, among others. These exemptions from GSA regulations
afford the Department flexibility in meeting its transportation needs in diverse overseas
environments, but in some cases the overseas regulations do not incorporate important fleet
efficiency objectives that apply to domestic vehicles. The Department has not yet developed
regulations to determine optimum vehicle inventories for overseas vehicles or to assess life-cycle
cost-effectiveness, for example.

         The Department has taken some steps to improve the efficiency of its motor vehicle
fleets. The Department and the U.S. Agency for International Development (USAID) established
a Joint Management Council in 2003 to reduce overall service costs and consolidate motor pool
services, among other objectives; motor pool consolidation should be complete by the end of FY
2012. The Department has introduced requirements to use alternative fuel vehicles overseas,
where applicable, and is implementing a fleet management information management system.
Finally, the Department established a fleet management council in 2007 to coordinate policy
issues among fleet managers and bureau stakeholders. The domestic fleet, in general, has made


1
  FEDERAL ACQUISITIONS: Increased Attention to Vehicle Fleets Could Result in Cost Savings, GAO-04-664,
May 25, 2004.
2
  Presidential Memorandum—Federal Fleet Performance, May 24, 2011.
                                             2
                                SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED

notable strides in implementing a range of new mandates, from fuel efficiency goals to
alternative fuel vehicle requirements.

Overseas Motor Vehicles
        In FY 2011, the Department reported a total of 12,913 motor vehicles in its overseas
fleets, with an overall acquisition cost of more than $783 million. 3 Since FY 2005, overseas
vehicle fleet growth in the Department has occurred across virtually all vehicle categories,
geographic regions, and funding. This trend reflects, in part, increases in the number of U.S.
direct hires assigned overseas and the commencement of operations in Iraq, Afghanistan, and
Pakistan. Since FY 2000, U.S. direct-hire staffing overseas from all agencies has increased 45
percent to 22,924 employees.

        The Department’s overseas motor vehicle fleets are funded from diverse sources.
Decisions on the size and composition of these fleets are made by country fleet managers,
usually management officers or general services officers at overseas missions. In general, either
Washington, DC, or regional procurement support offices fund and procure DS, INL, and Bureau
of Administration vehicles. According to 14 FAM 431.2-1 a., chiefs of mission overseas have
jurisdiction over official vehicles and must establish policies for the use of these vehicles for
business purposes. Overseas vehicles are also under the operational control of chiefs of mission.
The Department performs certain fleet management functions in Washington, such as approving
the acquisition of non-American motor vehicles and acquiring armored vehicles. See Table 1
below for a description of the Department’s overseas fleets, consisting of five major funding
categories, followed by Figure 1 depicting the total overseas vehicle acquisition costs for FYs
1998–2011.

         Funding Category                     Number of Vehicles                   Vehicle Acquisition Value
    ICASS                                          6,185                                 $211,152,870
    DS*                                            4,472                                 $450,809,591
    Bureau of Administration                       1,544                                   $50,349,355
    Program Vehicles
    INL                                                  511                                 $62,576,633
    Other**                                              201                                  $8,339,416
    Total                                             12,913                                $783,227,865
Source: OIG analysis of ILMS data.
Note: Vehicles include only those at overseas locations during the reporting period and not U.S.-sourced, in-transit
vehicles.
*Includes ICASS-funded local guard program vehicles.
**Includes OBO, Global Publication Services, and uncategorized vehicles.

                             Table 1: Overseas Vehicles by Funding Category




3
 This total includes all vehicles reported in the Department’s Integrated Logistics Management System (ILMS) for
overseas locations with the status of in service, in transit, received (not in service), and requisitioned in FY 2011.
                                                 3
                                    SENSITIVE BUT UNCLASSIFIED
                                                               SENSITIVE BUT UNCLASSIFIED


                                           250


                                           200

                 Total Cost ($ millions)   150


                                           100


                                            50


                                             0
                                                 1998

                                                        1999

                                                                2000

                                                                       2001

                                                                              2002

                                                                                     2003

                                                                                             2004

                                                                                                    2005

                                                                                                           2006

                                                                                                                  2007

                                                                                                                         2008

                                                                                                                                2009

                                                                                                                                       2010

                                                                                                                                              2011
                                                                                            Fiscal Year

               Source: OIG team analysis of ILMS Asset Management data.
               Note: Acquisition costs after 2003 reflect, in part, armored vehicle requirements in Iraq, Afghanistan,
               and Pakistan.

               Figure 1: Total Overseas Vehicle Acquisition Costs, FYs 1998–2011 (in $ millions)

               (The bar chart above shows the total overseas vehicle acquisition costs for FYs 1998–2011:
               1998, $8.1 million; 1999, $5.9 million; 2000, $6.1 million; 2001, $11.2 million; 2002, $20.6
               million; 2003, $22.7 million; 2004, $30.9 million; 2005, $55.9 million; 2006, $108.3 million;
               2007, $83.3 million; 2008, $117.4 million; 2009, $126.3 million; 2010, $207 million; 2011,
               $72.1 million.)

        ICASS funds most of the vehicles in the Department’s overseas fleets. ICASS is an
interagency cost-sharing system for the U.S. Government that provides and shares the cost of
common administrative support overseas, including motor vehicle operations. DS funds vehicles
to support security programs. The Bureau of Administration’s Motor Vehicle branch funds
vehicles for overseas missions where the Department is the only agency and to support special
requirements. INL funds and procures vehicles to furnish to host governments for foreign
assistance purposes and to provide transportation for INL employees. Vehicles in the “other”
category include those procured by OBO and vehicles not otherwise categorized in ILMS.

Data Integrity Limitations Preclude Reliable Analysis

        The Department does not have procedures to determine optimum fleet sizes for its
overseas vehicles. In 2006, the Bureau of Administration commissioned a contractor to prepare a
study of the Department’s fleet management practices. 4 The contractor concluded that the “lack
of a consistent fleet management program coupled with the lack of reliable and complete fleet
data make [the Department] vulnerable to criticism.” The report identified deficiencies in the
Department’s collection of vehicle fleet survey information, errors in capitalized property
records, and organizational redundancy in fleet management responsibilities as key challenges.

4
    Department of State Vehicle Fleet Management Study Report, conducted by Runzheimer International, 2006.
                                                                            4
                                                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        According to the ILMS Motor Vehicle Survey data that the OIG team analyzed, data
integrity remains a significant obstacle to efficient fleet management. For example, out of 264
embassies and consulates, 94 did not report information on the number of miles driven for each
vehicle in their Motor Vehicle Survey submissions. In some cases, major embassies had not
reported vehicle utilization data for years.

         To date, the Department has not developed formal vehicle utilization criteria for either
domestic or overseas fleets. GSA Bulletin FMR B-30 instructs Federal agencies to develop such
criteria to justify mission-essential vehicles particular to their needs. No generally agreed Federal
Government standard exists to identify underutilized vehicles. Instead, GSA Bulletin FMR B-30
instructs agencies to develop criteria that are specific, objective thresholds that identify vehicles
that best meet mission needs. In developing specific criteria, each Federal agency must consider
a minimum of 13 factors, including climate, terrain, mission, type of vehicle, and historical use
patterns. The Department may apply the criteria in GSA Bulletin FMR B-30 to the overseas fleet
if the Department determines that it is in the best interest of the United States. In FY 2012, the
Department commissioned a contractor to prepare a vehicle allocation methodology for the
domestic motor vehicle fleet. The contractor used as a benchmark 6,000 miles per year to
identify potentially underutilized vehicles and 2,000 miles per year to identify likely
underutilized vehicles.

        According to Bureau of Administration officials, various technical issues make the use of
ILMS Motor Vehicle Survey data problematic for statistical analysis, and the lack of reliable
data precluded the OIG team from determining the number of underutilized vehicles using even a
general benchmark. Because embassy personnel must complete data entry manually, these data
are prone to entry errors. Further, the current version of the ILMS Motor Vehicle Survey
application does not require users to enter all critical data fields before submitting records.
Despite the absence of firm data, the growing numbers of vehicles in the Department’s fleets,
increases in the dollar value of annual acquisition budgets, and existing ILMS Motor Vehicle
Survey data indicate that the Department has significant challenges in managing its vehicle
fleets.

Overseas Motor Vehicle Fleet Survey Reporting Needs Improvement

        Overseas missions do not consistently and accurately report motor vehicle fleet survey
information to the Bureau of Administration. Federal Management Regulation 102-34.335 5
requires that the Department report annually on the use of each motor vehicle in its domestic and
overseas fleets, including inventories, acquisitions, operating costs, mileage, and fuel use. For
overseas fleets, 14 FAM 437.3 requires that motor vehicle accountable officers collect this
information and submit it via the Motor Vehicle Survey Form at the end of every fiscal year;
however, the Department does not enforce this requirement. The absence of a process to monitor
the submission of accurate and timely fleet reporting raises the risk that GSA and the Department
will not receive the quantity and quality of vehicle use data that are necessary for efficient fleet
management.



5
    41 CFR 102-34.335.
                                           5
                              SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED

Recommendation 1: The Bureau of Administration should institute procedures to monitor the
completeness and timeliness of overseas Motor Vehicle Fleet Survey data and report deficiencies
to mission and Department of State senior leadership for review. (Action: A)

Reported Vehicle Fleet Efficiency Varies Widely Among Overseas Missions

        Average reported fleet efficiency and size varies widely among overseas missions, even
in similar operating environments. For example, Embassy Singapore operates a motor pool fleet
of only 13 vehicles for an embassy with 153 authorized U.S. direct-hire employees. By contrast,
Embassy Tokyo, with 243 authorized U.S. direct hires, operates a motor vehicle fleet of 32
vehicles. OIG identified Embassy Tokyo’s high motor pool operating costs in its 2008
inspection. The financial management office calculated a cost of $6.29 per kilometer driven in
2008. At this cost, the charge for an airport pickup or dropoff was $1,006.40 plus $45 in tolls. 6
Embassy Tokyo has recently initiated a review of motor pool operations to improve fleet
efficiency. In its 2011 inspection of Embassy Conakry, Guinea, OIG found that the embassy
maintained a fleet of 67 motor vehicles, with a total acquisition value of $2.76 million. OIG
found the fleet size excessive for a mission of Conakry’s size and recommended that the
embassy eliminate vehicles with an acquisition value of more than $1.1 million, based in part on
a comparison of fleet sizes at neighboring African missions, which averaged approximately 40
vehicles. 7

Developing World Missions Face Operating Challenges, But Some Are Fleet Leaders

         The OIG team’s analysis of fleet survey data found that vehicles reported as having been
driven 2,000 miles or less per year were represented most heavily in developing countries.
However, fleet managers in some missions operate fleets in which vehicles are driven more than
10,000 miles per year, with very few vehicles driven less than 2,000 miles per year. These fleet
leaders included the embassies in Cairo, Skopje, Zagreb, Tunis, Pretoria, and Istanbul. According
to the Bureau of Near Eastern Affairs, Embassy Cairo instituted a best practice of outsourcing
airport expediter services to a private contractor. Consulate General Istanbul reported that it had
developed mission procedures to procure American vehicles locally under warranty, which
facilitated repairs and reduced downtime for vehicles. Many African embassies report very high
mileage per year for vehicles in their fleets.

Reported Armored Vehicle Fleet Efficiency Varies Widely Among Overseas Missions

        Vehicles funded by DS form the single largest category of vehicles reported as having
been driven less than 2,000 miles, a potential indicator of underutilization. 8 These vehicles
include armored vehicles assigned to missions at risk for terrorism, crime, and political violence,
as well as cars assigned to support local guard programs, the Marine security guards, engineering
support offices, and other DS elements. Armored vehicles cost an average of $160,000. The
Department reported a total of 3,152 in-service armored vehicles in FY 2011, with an acquisition
value of more than $364 million. At missions where transportation by armored vehicle is
6
  Report of Inspection of Embassy Tokyo and Constituent Posts, ISP-I-08-39A, June 2008.
7
  Report of Inspection of Embassy Conakry, Guinea, ISP-I-11-44A, June 2011.
8
  As noted in this assessment, neither GSA nor the Department has adopted a mileage threshold to identify vehicles
as underutilized. This assessment uses 2,000 miles per year as a potential marker of vehicle underutilization.
                                                6
                                   SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

mandated by local security conditions, the availability of armored vehicles is critical to all
aspects of embassy operations. According to bureau and mission personnel surveyed by the OIG
team, armored vehicles require extensive maintenance, and certain repairs may be made only by
direct-hire vehicle maintenance employees from DS. These factors, in addition to the harsh
operating conditions in high-threat missions, make vehicles more prone to mechanical problems
and long-term inoperability due to lack of specialized spare parts.

Causes of Potential Underutilization

         A number of factors affect overseas vehicle fleet size and sometimes result in excessive
or costly fleet operations. Some embassies have more vehicles in their inventories than are
needed. Host governments in some countries levy import taxes on vehicles that preclude their
resale on the local market, require extensive and time-consuming vehicle registration, or prohibit
the disposal of vehicles past a certain age. Delays in auctioning vehicles can occur at missions
that conduct sales of excess property only intermittently. Receipt of vehicles late in the fiscal
year can result in low mileage driven for the reporting field. Armored vehicles may be retained
longer than necessary when an approved local destruction option is unavailable, or they may be
out of service for extended periods pending the arrival of spare parts and repair teams from
Washington. Some vehicles, such as ambulances, maintenance, and security vehicles, may serve
critical purposes but have low annual mileage due to short driving distances.

Embassy Baghdad Vehicle Fleet Management

        Embassy Baghdad’s vehicle fleet inventory is the Department’s largest. Embassy
Baghdad reports that many of its vehicles are driven less than 2,000 miles per year. Despite
limitations in ILMS Motor Vehicle Survey data, the size and dollar value of Embassy Baghdad’s
fleet and identified past problems remain a concern. The 2008 OIG inspection of Embassy
Baghdad listed four recommendations concerning motor vehicle fleet management: the lack of
an embassy motor vehicle fleet program; the need for a current, reconciled inventory of vehicles;
the need for a fleet review of vehicles on hand; and the suspension of additional vehicle
acquisitions until completion of the review. 9 OIG’s compliance followup review in 2010
reissued two recommendations, since they had yet to be accomplished: that the mission conduct
a motor fleet review of the vehicles under the operational control of DS, and that the mission
develop a comprehensive vehicle acquisition plan. 10 Reported vehicle inventories at Embassy
Baghdad in FY 2011 included 2,009 vehicles, with an acquisition value of $253.3 million. This
total does not include vehicles furnished to contractors and grantees in support of embassy
operations or vehicles operated by other agencies.




9
    Inspection of Embassy Baghdad, ISP-I-09-30A, June 2009.
10
     Compliance Follow-up Review of Embassy Baghdad, ISP-C-11-08A, October 2010.
                                               7
                                  SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


Domestic Motor Vehicles
       FMO supports Department operations in Washington, DC, the U.S. Mission to the United
Nations, and field offices throughout the United States. DS manages its own domestic fleet
operations separately from FMO. The Department reported a domestic fleet size of 1,560
vehicles in FY 2011, with total lease and operating costs of approximately $11 million.

        The Department has made progress in bringing domestic fleet management into
compliance with requirements it introduced in 2005. The percentage of domestic fleet vehicles
driven less than 2,000 miles in FY 2011 was less than 5 percent, the lowest of all the
Department’s vehicle fleets. FMO administers the Department’s alternative fuel vehicle
Greening Government Program and other domestic initiatives. The domestic fleet is subject to
fleet management regulations pertaining to fuel efficiency, use of alternative fuel vehicles, and
fleet management planning, among others. Average fleet efficiency for GSA’s vehicles, which
constitute approximately 68 percent of the domestic fleet, was 7,728 miles per vehicle.

Executive Fleet

        The President issued a May 2011 memorandum that directed Federal agencies to limit the
size of executive fleets that support senior officials. 11 Executive fleet vehicles must be limited in
motor vehicle body size, engine size, and optional equipment to what is essential to meet the
Department’s needs. The Department has 19 executive vehicles, of which 5 are dedicated to the
Secretary and the Deputy Secretaries and 14 are pooled vehicles that provide executive
transportation in the Washington, DC, area. According to the Department’s response to
Executive Order 13589 on promoting efficient spending, the executive fleet has a high utilization
rate. The Department reported that the executive fleet traveled 79,298 miles in FY 2011,
performing more than 14,000 trips for more than 21,000 passengers annually. The average cost
per mile, including equipment, labor, and expenses, is lower than that for commercial options in
the national capital region. The Department’s executive fleet size and management demonstrate
good stewardship of taxpayer resources.




11
     Presidential Memorandum—Federal Fleet Performance, May 24, 2011.
                                               8
                                  SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED


Motor Vehicle Fleet Management Challenges
        The Department does not have a process that effectively links budget decisions and
documented motor vehicle fleet needs. Generally, neither bureaus nor embassy ICASS councils
have access to fleet management data when making vehicle budget decisions. To improve fleet
efficiency, the Department can employ a range of policy options to link resource allocation more
closely with efficiency information. These steps include setting bureau and mission motor
vehicle ceilings, introducing acquisition controls to limit vehicle purchases to justified
requirements, consolidating motor vehicle fleets under a cost distribution system such as ICASS,
and improving the quality of fleet management information available to managers. A plan that
incorporates a combination of such options will likely achieve the best result.

        Two practices already in place for the domestic fleet will further allow the Department to
improve its fleet efficiency and the quality of information it and overseas vehicle fleet managers
receive: the vehicle allocation methodology study and the Department fleet management plan.
Both have already been deployed for a small part of the Department’s domestic fleet and are
discussed in turn below.

Vehicle Allocation Methodology Study

       On May 24, 2011, the President directed GSA to develop and distribute to agencies a
vehicle allocation methodology for identifying optimum fleet inventories. On August 22, 2011,
GSA released Bulletin FMR B-30 to provide additional guidance on fleet management policies
pursuant to the President’s memorandum, including the requirement that each agency submit to
GSA an annual report on the results of the vehicle allocation methodology study.

         The Department completed a vehicle allocation methodology study of the domestic fleet
in February 2012. The study included 490 vehicles and recommended eliminating 21 vehicles,
approximately 4 percent of the vehicles studied. 12 The study entailed identifying vehicles in the
domestic fleet that had been driven less than 6,000 miles and then using a contractor-developed
survey for fleet managers that described each identified vehicle’s function and assigned a score
for criticality as well as utilization to determine whether to retain it in the fleet. According to
domestic bureau officials interviewed by the OIG team, the process was not overly time
consuming and yielded valuable information about optimum fleet composition and vehicle
usage. Although overseas missions have special security, traffic, and local condition
requirements, in principle the same process could be adapted to determine optimal fleet sizes
overseas and would assist the Department in allocating resources more efficiently and reducing
the number of unneeded vehicles.

Recommendation 2: The Bureau of Administration, in coordination with the Bureau of Budget
and Planning and the Office of the Under Secretary for Management, should conduct a study of
the overseas vehicle fleet using the motor vehicle methodology of General Services
Administration Bulletin FMR B-30. (Action: A, in coordination with BP and M/PRI)


12
  Law enforcement vehicles were exempted from the vehicle allocation methodology requirement by the Secretary,
and the regulation does not apply to the overseas fleet.
                                              9
                                 SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Department Fleet Management Plan

         GSA Bulletin FMR B-30 requires the Department to develop a fleet management plan
for the entire fleet in the United States. The Department may include overseas vehicles if the
Department determines that doing so is in the best interest of the United States. However, the
Department elected not to include overseas vehicles in the fleet management plan it submitted to
GSA on February 17, 2012. The Department also exempted the domestic law enforcement fleet
from this requirement. The Department’s FY 2012 fleet management plan applies only to 490
vehicles in the domestic fleet and omits almost 96 percent of the vehicles in the Department’s
inventory. According to GSA, development of an annual fleet replacement plan that projects the
replacement dates and acquisition costs for each vehicle is a fleet management best practice. The
OIG team believes that the positive efficiency results obtained in domestic fleets are attributable
in part to implementation of GSA fleet management initiatives, including a fleet management
plan. The development of a plan that incorporates the overseas and law enforcement fleets could
identify ways to improve efficiency and reduce costs.

Recommendation 3: The Bureau of Administration, in coordination with the Bureau of Budget
and Planning and the Office of the Under Secretary for Management, should prepare an FY 2013
fleet management plan that includes overseas and domestic fleet elements. (Action: A, in
coordination with BP and M/PRI)




                                          10
                              SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


Motor Vehicle Allocation and Acquisition
        According to GSA’s Guide to Federal Fleet Management, the most costly components of
fleet operations are purchasing and leasing vehicles. Since FY 2005, the Department has
procured vehicles with a total value exceeding $800 million, including approximately $72
million in vehicles acquired during FY 2011. Overseas vehicle procurement actions must be
approved by the Bureau of Administration’s Motor Vehicle branch, except in the case of locally
procured maintenance and utility service vehicles, per 14 FAM 438.4-3 b. (3). Domestic vehicles
typically are leased or procured from GSA, but the Department also leases some vehicles from
commercial vendors.

        Because Department fleet management is operationally decentralized, individual fleet
managers have discretion in acquiring replacement vehicles and determining fleet sizes.
Overseas fleet managers do not have to prepare annual fleet management plans or justify that
replacement vehicles meet minimum utilization standards. Although purchases made in the
absence of a fleet management plan may reflect legitimate requirements, current policies do not
require written justification of fleet needs. In addition, because overseas missions may procure
non-American service vehicles directly, the Department is not always in compliance with Buy
American Act provisions for these purchases.

Overseas Vehicle Allocation and Replacement Criteria

        In 2002, the Office of Management and Budget began requiring agencies, as part of their
budget submission, to report the size, composition, and cost of their fleets for the current year
and to project costs for the next 3 fiscal years. The narrative of the report to the Office of
Management and Budget must detail the reasons for any significant changes in fleet size, discuss
the methodology used to assign vehicles, and identify any impediments to managing the fleet.
The 2004 Government Accountability Office audit (GAO-04-664) referenced earlier found that
agencies had not developed vehicle allocation and replacement criteria and recommended that
GSA establish governmentwide additional regulations on this subject.

        The Department’s regulations for assigning vehicles and setting fleet sizes overseas are
obsolete. According to 14 FAM 432.2 a. (1) – (4), the size and composition of a mission’s
program 13 fleet is based on a 4-to-1 ratio of Department U.S. citizen positions per vehicle and an
overall target of 12,000 miles per vehicle per year. These criteria apply only to overseas program
vehicles and do not include ICASS, DS, OBO, or INL vehicles, which form the substantial
majority of the Department’s fleet. According to Bureau of Administration officials, the Motor
Vehicle branch does not actually use these criteria in assigning vehicles to overseas missions
even for the program fleet vehicles, which are instead replaced every 3 to 5 years without
reference to the factors in 14 FAM 432.2 a. The fleet size and composition for the ICASS fleet is
determined by the mission’s ICASS council and for other vehicles by the mission’s fleet
management officer, usually a management officer or general services officer. In many cases, an
overseas mission’s decision to procure vehicles may be based on the availability of funds rather


13
  Specialized property associated with a unique program where overall management and technical expertise are
controlled by a single bureau or agency and which is generally funded by that bureau or agency.
                                              11
                                  SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

than on a validated need. The lack of allocation and replacement criteria may contribute to
suboptimal fleet management practices.

Recommendation 4: The Bureau of Administration, in coordination with the Bureau of
Diplomatic Security, should update and revise 14 FAM 432.2 to establish formal criteria for the
allocation, replacement, and disposal of overseas vehicle fleets. (Action: A, in coordination with
DS)

Motor Vehicle Branch Vehicles

        In most overseas fleets, vehicles consist of a mix of vehicles funded by ICASS and the
Bureau of Administration (program vehicles). Prior to the creation of ICASS in 1997, all
Department vehicles were centrally acquired and allocated by the Motor Vehicle branch. With
the creation of ICASS, fleet management responsibility was transferred to ICASS overseas fleet
managers. The Motor Vehicle branch centrally funds the acquisition and replacement of vehicles
for a residual program fleet of approximately 1,200 vehicles. In FY 2011, the program vehicle
budget was approximately $8 million. The rationale for maintaining a separate program funding
element is not entirely clear, especially given the Department’s drive to consolidate interagency
vehicle fleets to reduce costs. However, program funding remains a logical option for overseas
missions where the Department is the only agency or when it is necessary to meet emergency
vehicle requirements after natural disasters or in other special circumstances.

Recommendation 5: The Bureau of Administration should realign the Motor Vehicle branch
program vehicle acquisition budget to reflect a primary focus on supporting overseas missions
without International Cooperative Administrative Support Services System vehicle funding.
(Action: A)




                                         12
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Innovative Practice: Centralized Procurement of Right-Hand-Drive Vehicles

Innovative Practice: Centralized Procurement of Right-Hand-Drive Vehicles

Issue: The Department’s general practice is to require the purchase of American-manufactured
vehicles whenever possible, consistent with the Buy American Act, 41 U.S.C. 8301 et seq. There
are 74 countries that use right-hand-drive vehicles. In countries where local conditions require
purchase of right-hand-drive vehicles or where American-manufactured vehicles cannot be
serviced, the Department issues waivers to permit purchases of foreign vehicles. Overseas
missions are responsible for subsequent purchases.

Response: The Bureau of Administration’s Motor Vehicle branch has set up a pilot program
with GSA to facilitate the centralized procurement of right-hand-drive vehicles at a substantial
discount over the commercial rate for such vehicles.

Result: This process will significantly streamline the contracting and acquisition timeframes for
vehicle purchases and likely lead to substantial discounts for the U.S. Government. This program
also will allow the manufacturer’s vehicle warranty to be extended to vehicles sent overseas,
potentially reducing repair costs and facilitating repair of vehicles under warranty. Contracting
officers will also save time and money by procuring these vehicles from a single Department
source.




                                          13
                              SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED


Motor Vehicle Fleet Operations
        Motor vehicle fleet operations include the full range of day-to-day responsibilities
pertaining to motor vehicles: record-keeping, fuel management, safety, maintenance and repairs,
and motor pool operating procedures, among others. As noted earlier in this assessment, the
Department operates vehicles in an exceptionally diverse number of environments that make full
standardization of fleet operations procedures impractical. In addition, under 22 U.S.C. § 2700,
the Department has broad authority to provide transportation at overseas missions for U.S.
Government employees and their families when public transportation is unsafe or unavailable, or
when such use is advantageous to the government. These conditions vary depending on host
country circumstances.

         Additional economies and efficiencies may be obtained by implementing best practices
and consolidating motor vehicle fleets, where possible. The Department’s Regional Initiatives
Council, which consists of representatives from ICASS, the geographic bureaus, and the Office
of Management Policy, Rightsizing, and Innovation, has recently issued guidance on best
practices pertaining to vehicle fleets. This guidance includes development of a best practices
Web site and issuance of a worldwide cable with instructions to seek cost reductions for local
transportation services. The Department is in the final stage of consolidating motor vehicle fleets
with USAID, the result of a 9-year effort. These initiatives are likely to reduce costs and improve
fleet efficiency over time.

Motor Vehicle Fleet Consolidation

        Since 2003, the Department has worked to consolidate overseas motor pool services with
USAID. This process is expected to be complete by the end of FY 2012. The process of
consolidating motor vehicle services among agencies other than USAID is even more difficult.
As noted in a recent Government Accountability Office audit, 14 other Federal agencies are not
required to consolidate motor pool services under ICASS. To facilitate greater use of ICASS
motor vehicle fleets for interagency customers who have requirements for dedicated or
specialized vehicles, ICASS has recently developed a subcost center that allows direct charging
of agencies for dedicated vehicle services. This mechanism in principle provides more flexibility
to consolidate fleets under ICASS, regardless of funding source for the vehicle. With respect to
the Department’s internal fleets, the Department has consolidated some, but not all, of its
overseas vehicles. Vehicles funded by DS, OBO, and INL still operate outside ICASS motor
pools at many embassies.

Fleet Management Information System

       Federal Management Regulation 102-34.340 15 requires agencies to implement a fleet
management information system to identify, collect, and analyze motor vehicle data on the
operation, maintenance, acquisition, and disposition of motor vehicles. The Department
developed the ILMS Fleet Management Information System to comply with this mandate. This

14
   State Department and Other Agencies Should Further Explore Opportunities to Save Administrative Costs
Overseas, GAO-12-317, January 31, 2012.
15
   41 CFR 102-34.340.
                                             14
                                 SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

system was deployed to the Department’s domestic motor pool in July 2011. Deployment of the
system to select overseas missions commenced in FY 2011. The system provides visibility into
all vehicle fleet expenses and operations and offers the possibility of automating many fleet
management functions in coming years. The Department anticipates that, if funds are available,
the deployment process will continue through 2014. In addition, the Office of Management
Policy, Rightsizing, and Innovation has deployed a motor pool operations module in the
eServices suite of administrative applications.

Motor Vehicle Policies

        According to 14 FAM 432.5, chiefs of mission are required to prepare an annual vehicle
policy memorandum setting out mission-specific policies pertaining to use of official vehicles. In
mission inspections, OIG regularly makes recommendations to address motor vehicle policy
issues such as noncompletion of motor vehicle use memoranda, failure to charge for home-to-
office use of official vehicles (including use by deputy chiefs of mission and regional security
officers), and inappropriate use of vehicles for home-to-office transportation. In general, the OIG
team believes that the Department’s motor vehicle use policies and regulations provide an
adequate framework for controlling the use of official vehicles.




                                          15
                              SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED


Motor Vehicle Disposal
        Proper life-cycle management of vehicles requires disposal of those that are no longer
needed or economical to operate. The Department faces a number of special challenges
pertaining to vehicle disposal. These include managing excess vehicles at overseas contingency
operations, overseeing the transfer of surplus vehicles from other agencies, and ensuring the
proper disposal of armored vehicles. Each of these issues has been the subject of previous OIG
inspections and audit recommendations or of recent corrective action by the Department.

        Overseas vehicle disposal procedures differ depending on whether the vehicle is an
ICASS vehicle, an armored vehicle, or a vehicle funded by a different Department bureau.
Overseas missions must obtain preapproval from the appropriate program office to dispose of
non-ICASS Department-funded vehicles. An overseas mission must dispose of vehicles within 6
weeks of receipt of authorization; otherwise, the mission must notify the owning agency and
explain the reasons for not disposing of the vehicles. In addition, when disposing of armored
vehicles, overseas missions must follow the procedures in 12 FAM 388.

        In reviewing ILMS vehicle disposal statistics, the OIG team found that 1,307
government-owned motor vehicles were disposed of in FY 2011. During the previous 5 years,
approximately 1,200 vehicles were disposed of annually, representing approximately 9 percent
of the total fleet. On that basis, the OIG team notes that the overseas fleet replacement cycle is
more than 10 years. Because the Department does not keep accurate records of repair costs, the
cost-effectiveness and safety implications of retaining vehicles for longer periods cannot be
ascertained. Local conditions may substantially affect a mission’s ability to dispose of vehicles in
a timely fashion. For example, most overseas missions conduct excess property sales only on an
intermittent basis, and some host governments apply import taxes or prohibit disposal of certain
classes of vehicles.

Armored Vehicle Disposal Issues

       Regulations in 12 FAM 388 require that the disposal of all armored vehicles be
coordinated with DS and the Bureau of Administration. For security reasons, all armored
vehicles must be disposed of only by destruction. Among the approved disposal methods are
explosive demolition, burning, crushing, or burial on U. S. Government-controlled land.
Approximately 7 percent of armored vehicles were disposed of in FY 2011. Of the total numbers
of vehicles reported as being driven 1 mile or less in FY 2011, approximately half were armored
vehicles.

       Reasons for not completing a proper armored vehicle disposal might include lack of
embassy funds, lack of means for destruction, or lack of embassy attention. To ensure proper
disposal of armored vehicles, in its inspection of DS’s Countermeasures directorate, OIG
recommended that DS establish a system for missions to dispose of armored vehicles in
accordance with prescribed disposal requirements. 16 DS has developed an option to dispose of
vehicles in Lorton, Virginia, for missions that do not have other disposal options.


16
     Inspection of Bureau of Diplomatic Security/Countermeasures Directorate, ISP-I-11-06, November 2010.
                                                16
                                    SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: The Bureau of Administration should institute procedures to monitor the
completeness and timeliness of overseas Motor Vehicle Fleet Survey data and report deficiencies
to mission and Department of State senior leadership for review. (Action: A)

Recommendation 2: The Bureau of Administration, in coordination with the Bureau of
Budget and Planning and the Office of the Under Secretary for Management, should conduct a
study of the overseas vehicle fleet using the motor vehicle methodology of General Services
Administration Bulletin FMR B-30. (Action: A, in coordination with BP and M/PRI)

Recommendation 3: The Bureau of Administration, in coordination with the Bureau of
Budget and Planning and the Office of the Under Secretary for Management, should prepare an
FY 2013 fleet management plan that includes overseas and domestic fleet elements. (Action: A,
in coordination with BP and M/PRI)

Recommendation 4: The Bureau of Administration, in coordination with the Bureau of
Diplomatic Security, should update and revise 14 FAM 432.2 to establish formal criteria for the
allocation, replacement, and disposal of overseas vehicle fleets. (Action: A, in coordination with
DS)

Recommendation 5: The Bureau of Administration should realign the Motor Vehicle branch
program vehicle acquisition budget to reflect a primary focus on supporting overseas missions
without International Cooperative Administrative Support Services System vehicle funding.
(Action: A)




                                         17
                             SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
Department      U.S. Department of State
DS              Bureau of Diplomatic Security
FAH             Foreign Affairs Handbook
FAM             Foreign Affairs Manual
FMO             Fleet Management and Operations division
GSA             General Services Administration
ICASS           International Cooperative Administrative Support Services
ILMS            Integrated Logistics Management System
INL             Bureau of International Narcotics and Law Enforcement Affairs
OBO             Bureau of Overseas Buildings Operations
OIG             Office of Inspector General
USAID           U.S. Agency for International Development




                            18
                SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Appendix I: Objectives, Scope, and Methodology
        OIG’s Office of Inspections initiated this assessment under the authority of the Inspector
General Act of 1978 and the Foreign Service Act of 1980, as amended. The objectives of this
assessment were to determine (1) whether the Department has in place appropriate procedures to
review the size, composition, and use of its motor vehicle fleets; and (2) whether the Department
is implementing GSA’s and industry’s best practices in selected areas of vehicle fleet
management.

        To address the first objective, the OIG team examined vehicle fleet utilization data from
ILMS’s Asset Management and Fleet Survey modules and from GSA’s Fleet Drive-Thru reports.
The Department is required by Federal Management Regulation 102-34.330 17 to report annually
to GSA information on motor vehicle fleet inventory, acquisitions, operating costs, mileage, and
fuel use. To meet this reporting requirement, the Department collects information from ILMS,
GSA’s Fleet Drive-Thru reports, and manual records. Overseas missions are required by 14
FAM 437.3 to prepare the annual ILMS Fleet Survey Form. The data used to submit these
reports constituted the main information source for this assessment. The OIG team took steps to
remove outliers from the data prior to analysis. The team met with key stakeholders in the
Bureau of Administration; DS; INL; OBO; the Office of Management Policy, Rightsizing, and
Innovation; the Bureau of Resource Management/ICASS; and the geographic bureaus. The team
also corresponded directly with a number of overseas missions concerning fleet management
practices and followed up with specific questions.

         The ILMS Fleet Survey data analyzed by the OIG team have a number of limitations.
First, they do not take into account several factors that affect a mission’s needs for vehicles. The
data do not include a measure of vehicle criticality, for example. Vehicles such as ambulances or
water trucks may have low mileage but can be critical to mission operations. The limitations of
the available data also did not permit the team to determine whether vehicles driven less than
2,000 miles—a level of utilization used by GSA’s vehicle allocation methodology contractor to
identify potentially underutilized vehicles—were, in fact, underutilized, or to identify
conclusively the reasons for underutilization, if so. In addition, the OIG team did not review fleet
utilization records for the Department’s government-owned domestic vehicles. Although the
OIG team took steps to remove outliers from the data prior to analysis, the Fleet Survey data
reflect incomplete reporting by many overseas missions. For example, 94 missions did not
submit complete FY 2011 fleet survey reports, as required by 14 FAM 437.3.

        To address the second objective, the OIG team reviewed best practices in GSA’s Guide
to Federal Fleet Management and identified four fleet management best practices for further
review. The team identified two best practices in fleet management incorporated into GSA’s
Bulletin FMR B-30, which does not apply to the Department’s overseas fleet but contains fleet
management criteria that do apply to elements of the domestic fleet and may apply to the
overseas fleet if the Department determines that it is in the best interest of the United States.
Finally, from interviews with geographic bureau personnel, the team identified one best practice
for the overseas context . The team then conducted interviews with geographic and functional
bureau personnel to determine whether these best practices were incorporated into fleet
17
     41 CFR 102-34.330.
                                          19
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

management business practices for individually funded fleet components. Separately, the team
also corresponded directly with fleet managers at overseas embassies that had especially high
utilization rates, low numbers of vehicles, and low numbers of vehicles with less than 2,000
miles per year in their inventories.




                                         20
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Appendix II: Implementation of Best Practices
         Because the Department’s overseas fleets are diverse and operationally decentralized, it
faces challenges in consistently implementing fleet management best practices. As noted earlier
in this assessment, reported vehicle fleet efficiency varies widely among overseas missions. For
example, Embassy London reported 42 vehicles in its official fleet for a mission with 521
authorized positions, a ratio of vehicles to employees of 12:1. Embassy Berlin reported 78
vehicles for a mission with 188 authorized positions, a 2.4:1 ratio. The reasons for different fleet
sizes at missions with substantially similar operating environments are not readily apparent.

        The OIG team interviewed bureau officials and managers to review fleet management
practices that may be applicable worldwide. In addition, the team reviewed GSA’s Guide to
Federal Fleet Management to identify core fleet management best practices that may be
applicable in a wide variety of operating contexts. Finally, the team surveyed missions identified
as having especially efficient fleets for potential practices that could be applicable elsewhere.
The team identified four GSA best practices: one from interviews with Department fleet
managers, and two from GSA’s Bulletin FMR B-30, which contains fleet management criteria
that apply to some elements of the domestic fleet. The team then reviewed the fleet management
practices to determine the extent to which such practices were incorporated. The list of best
practices is discussed below.

   •   Outsourcing of Motor Pool Functions: According to geographic bureau representatives
       interviewed by the OIG team, outsourcing of vehicle functions can reduce fleet sizes and
       operating costs. Some overseas missions outsource a portion of their motor pool
       requirements to private sector vendors when it is cost efficient to do so. For example, the
       Bureau of Near Eastern Affairs reported that Embassy Cairo uses a contractor to provide
       expediter services at the airport. The Bureau of East Asian and Pacific Affairs noted that
       Embassy Canberra relies upon taxicabs to provide most official transportation, rather than
       embassy-operated vehicles. The Bureau of European and Eurasian Affairs noted that
       Embassy Zagreb uses a blanket purchase agreement for after-hours official transportation
       requirements to obtain services from a local taxi vendor.

   •   Formal Written Fleet Management Policy: According to GSA, a comprehensive fleet
       management policy and procedure manual provide an essential foundation for effective
       and uniform control of fleet assets. Most bureaus and overseas missions rely on general
       guidance in 14 FAM 430 and 6 FAM 1940 for vehicle operations. In addition, individual
       embassies prepare mission-specific motor vehicle memoranda concerning use of official
       vehicles. Several fleet managers in FMO have developed more specific fleet management
       policies for their operations.

   •   Centralized Vehicle Acquisition, Allocation, and Disposal: According to GSA,
       centralization of fleet management functions is a best practice. The Department’s fleets
       are for the most part operationally decentralized, which makes the application of uniform
       criteria to the acquisition, allocation, and disposal of vehicles more difficult. Within the
       Department, some fleet management functions are centralized. For example, the DS
       Armored Vehicle Program centrally acquires and allocates most armored vehicles and
                                                  21
                                SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

    must authorize disposal of any armored vehicle in the fleet. Among Department fleets,
    only FMO operates a fully centralized fleet.

•   Chargeback Mechanisms: According to GSA, chargeback mechanisms make it easy
    for fleet managers to see the costs of underutilized vehicles and take appropriate
    corrective actions to remove them from fleets. Funding offices can more readily identify
    vehicle costs and implement life-cycle replacement through chargeback mechanisms. In
    principle, all Department vehicles, regardless of funding source, could be operated with a
    chargeback mechanism and a centrally managed life-cycle replacement mechanism.
    Within the Department, GSA fleet vehicles operate on a full chargeback system;
    overseas, ICASS vehicles operate on a chargeback system, but costs are aggregated into
    various cost centers and functions codes and are not readily visible to embassy managers.
    DS, INL, OBO, and program vehicles are not operated on a chargeback system.

•   Fleet Management Plan and Vehicle Allocation Methodology: GSA Bulletin FMR B-
    30 outlines a process for rightsizing agency vehicle fleets, including a requirement for a
    formal, structured fleet management plan and vehicle allocation methodology for
    determining optimal vehicle mixes. These practices are now mandatory for all domestic
    Federal agency fleets except law enforcement fleets. They do not apply to overseas
    vehicles but may apply to the overseas fleet if the Department determines that it is in the
    best interest of the United States. No overseas fleet component has yet implemented a
    fleet management plan or vehicle allocation methodology.




                                      22
                          SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Appendix III: Case Studies
         As part of this assessment, the OIG team identified overseas missions with high vehicle
utilization levels, low numbers of vehicles driven less than 2,000 miles, and relatively small
vehicle fleets. The team surveyed these missions to identify operational practices that could be
applicable elsewhere. Typically, missions reported making use of available fleet management
tools such as eServices and Web.PASS, outsourcing services to taxicab companies, following a
vehicle life-cycle replacement program, developing strong preventive maintenance programs,
and employing fuel-efficient vehicles. In most cases, missions credited skilled local employees
as essential to achieving positive fleet management results.

Embassy Ottawa

        Embassy Ottawa operates one of the most efficient vehicle fleets in the Department. The
embassy uses taxis for after-hours transportation to reduce overtime and vehicle requirements,
follows a rigorous preventive maintenance program, and centralizes fleet management functions
for Mission Canada in Ottawa, including asset management record-keeping. The embassy
maintains a very low number of chauffeurs throughout the mission. Principal officers at
constituent posts self-drive their own vehicles.

Embassy Tunis

        Embassy Tunis reported that it had instituted a self-drive policy for certain vehicles; used
taxis for weekend and night requirements; regularly reviewed fleet composition to ensure an
adequate mix of sedans, light trucks, and service vehicles; and maintained a strong preventive
maintenance program with adequately stocked parts and equipment to keep vehicles in good
operating condition.

Embassy Skopje

        Embassy Skopje reported a number of initiatives to maintain efficient fleet operations.
These included instituting monthly reviews of motor pool efficiency using the Monthly Fuel
Report and Fleet Summary Report, combining motor pool pickup requests whenever possible,
using taxis for some requirements, strictly following preventive maintenance schedules, using
vehicle warranties for covered repairs, and purchasing an appropriate mix of vehicles for fleet
needs. Embassy Skopje noted that its locally employed motor pool manager was empowered to
manage all aspects of motor pool operations.

Embassy Pretoria

        Embassy Pretoria supports the second-largest overseas mission in Africa. The embassy
has centralized vehicle asset management responsibilities for acquisition, replacement, and
record-keeping in the office. The embassy maintains an average vehicle fleet age of 3 to 5 years,
which reduces repair costs and downtime. Because the embassy purchases vehicles under a 3-
year warranty, many repairs are covered at no cost to the government. The embassy conducts
quarterly vehicle inspections, maintains a regular preventive maintenance schedule, and uses

                                          23
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

regional security office-approved taxicab companies to reduce overtime and vehicle
requirements. The mission also uses a local bank’s fleet management electronic application to
manage fuel and toll payments, track repair schedules, and provide reports on vehicle needs and
operations. The mission credited skilled local employees with successfully managing both fleet
data and daily operations proficiently.

Embassy Tashkent

        Embassy Tashkent noted that it had achieved efficiencies by using the eServices
electronic application for motor pool dispatching, standardizing its fleet using GSA-procured
American vehicles, and regularly procuring and disposing of vehicles to keep the fleet within
acceptable age parameters. By acquiring and replacing vehicles according to recommended life
cycles, the embassy reported that it reduced repair costs by thousands of dollars.




                                         24
                             SENSITIVE BUT UNCLASSIFIED
              SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
        Arlington, VA 22219




   SENSITIVE BUT UNCLASSIFIED
